   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




June 15, 2010

TO:             Yvette Sanchez Fuentes
                Director, Office of Head Start
                Administration for Children and Families


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of Limited Scope Review of Sisseton-Wahpeton Oyate Head Start
                Program (A-07-09-03134)


The attached final report provides the results of our limited scope review of the Sisseton-
Wahpeton Oyate Head Start Program. This review was requested by the Administration for
Children and Families, Office of Head Start, as part of its overall assessment of Head Start
grantees that have applied for additional funding under the American Recovery and
Reinvestment Act of 2009.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-07-09-03134 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




     RESULTS OF LIMITED
      SCOPE REVIEW OF
 SISSETON-WAHPETON OYATE
    HEAD START PROGRAM




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-07-09-03134
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to the Improving Head Start for School Readiness Act of 2007, P.L. No. 110-134, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services, the Administration for Children and Families (ACF), Office of Head Start (OHS),
administers the Head Start program. The Head Start program provides grants to local public and
private non-profit and for-profit agencies to provide comprehensive child development services
to economically disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start Centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and to
bolster training and technical assistance activities.

The Lake Traverse Reservation is home of the Sisseton-Wahpeton Oyate (SWO) bands of the
eastern Dakota (Sioux); these are two of the seven major bands commonly referred to as the
Great Sioux Nation. SWO has operated a Head Start program for 15 years. The program
currently provides services to 194 infants, toddlers, and preschool-aged children at locations in
Agency Village and Enemy Swim, South Dakota. At the time of our fieldwork, SWO employed
62 staff members at these Head Start facilities.

The SWO Head Start program is funded primarily through Federal Government grants. During
program year 2009 (October 1, 2008, through September 30, 2009), ACF directly provided grant
funds to SWO totaling $1,719,413.

On July 16, 2009, ACF also awarded Recovery Act grant funds to SWO for the budget period
July 1, 2009, through September 30, 2009, totaling $107,733 for cost-of-living increases and
quality improvement.

In April 2009, ACF issued a report on the results of the triennial review it conducted at SWO in
December 2008. This report identified 11 areas of noncompliance; several of these areas had
multiple concerns. In June 2009, ACF requested that we perform a limited scope review of
SWO’s Head Start program to determine whether it complied with applicable Federal and State
requirements. In our review, we addressed 13 concerns in which SWO’s Head Start program
was not in compliance with applicable Federal requirements.

OBJECTIVE

The objective of our limited scope review was to determine whether SWO had corrected the
concerns identified by ACF during its triennial review in December 2008.



                                                i
SUMMARY OF FINDINGS

SWO implemented adequate corrective actions with respect to 5 of the 13 concerns identified by
ACF during its triennial review in December 2008. However, 6 of the 13 concerns remained
uncorrected by the end of our fieldwork. (We did not review 2 of the 13 concerns ACF
identified because ACF agreed to review these 2 concerns separately.)

SWO implemented adequate corrective actions with respect to five concerns identified by ACF
during its triennial review in December 2008. Specifically, we determined that SWO:

   •   provided proper authorized documentation to support payroll checks;

   •   provided documentation that its Head Start program met the income-eligibility guidelines
       for families;

   •   provided documentation that ensured that all required information was included in the
       Community Assessment;

   •   provided documentation to ensure that it was in compliance with in-kind donations
       regarding the leasing of buildings; and

   •   submitted its audit report in a timely manner.

SWO did not implement adequate corrective actions with respect to six other concerns identified
by ACF during its triennial review in December 2008. Specifically, we determined that SWO:

   •   did not ensure that its accounting policies and procedures manual was updated and
       current;

   •   did not ensure that required background checks were documented for all employees;

   •   did not maintain an efficient and effective recordkeeping system for employee records;

   •   did not develop and implement a systematic, ongoing process of program planning;

   •   did not ensure that all employees completed initial health examinations to include
       screenings for tuberculosis; and

   •   did not ensure that mental health services were provided on a regularly scheduled basis
       with on-site consultation.

RECOMMENDATION

In determining whether SWO should be awarded additional Head Start and Recovery Act
funding, we recommend that ACF consider the information presented in this report.



                                                ii
AUDITEE COMMENTS

In written comments on our draft report, SWO did not directly agree or disagree with our
findings, but stated that its Head Start program “has strengthened partnerships in the community
and began to correct the concerns mentioned in the [draft] report.” SWO’s written comments
also provided more detailed information on corrective actions that SWO said it has either begun
to implement or is planning to implement.

SWO’s comments are included in their entirety as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in SWO’s written comments caused us to change either our findings or our
recommendation to ACF. Therefore we maintain that those findings and the recommendation, as
stated in our draft report, remain valid.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Federal Head Start Program .....................................................................................1
              Sisseton-Wahpeton Oyate of the Lake Traverse Reservation..................................1
              Federal Regulations for Head Start Grantees...........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope ........................................................................................................................2
               Methodology ............................................................................................................2

FINDINGS AND RECOMMENDATION...................................................................................3

          UNCORRECTED CONCERNS..........................................................................................4
              Accounting Policies and Procedures Manual Not Updated .....................................4
              Missing Background Check Documentation ...........................................................5
              Insufficient Recordkeeping Systems for Staff Members and Children ...................5
              Program Planning Process Not Documented ...........................................................5
              Health Examinations Not Completed ......................................................................6
              Mental Health Services Not Provided......................................................................6

          RECOMMENDATION .......................................................................................................7

          AUDITEE COMMENTS.....................................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................7

APPENDIX

          AUDITEE COMMENTS




                                                                     iv
                                      INTRODUCTION

BACKGROUND

Federal Head Start Program

Pursuant to the Improving Head Start for School Readiness Act of 2007, P.L. No. 110-134, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services, the Administration for Children and Families (ACF), Office of Head Start (OHS),
administers the Head Start program.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and to
bolster training and technical assistance activities.

Sisseton-Wahpeton Oyate of the Lake Traverse Reservation

The Lake Traverse Reservation is home of the Sisseton Wahpeton Oyate (SWO) bands of the
eastern Dakota (Sioux); these are two of the seven major bands commonly referred to as the
Great Sioux Nation. The Tribe has operated a Head Start program for 15 years, which currently
provides services to 194 infants, toddlers, and preschool-aged children at locations in Agency
Village and Enemy Swim, South Dakota. At the time of our fieldwork, SWO employed 62 staff
members at these three Head Start facilities.

The SWO Head Start program is funded primarily through Federal Government grants. During
program year 2009 (October 1, 2008, through September 30, 2009), ACF directly provided grant
funds to SWO totaling $1,719,413.

On July 16, 2009, ACF also awarded Recovery Act grant funds to the SWO for the budget
period July 1, 2009, through September 30, 2009, totaling $107,733 for cost-of-living increases
and quality improvement.




                                                1
Federal Regulations for Head Start Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs. Grantees must maintain accounting records that are supported by source documentation
and must maintain financial systems that provide for accurate and complete reporting of grant-
related financial data.

In April 2009, ACF issued a report on the results of the triennial review it conducted at SWO in
December 2008. This report identified 11 areas of noncompliance; several of these areas had
multiple concerns. In June 2009, ACF requested that we perform a limited scope review of
SWO’s Head Start program to determine whether it complied with applicable Federal and State
requirements. In our review, we addressed 13 concerns in which SWO’s Head Start program
was not in compliance with applicable Federal requirements.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

The objective of our limited scope review was to determine whether SWO had corrected the
concerns identified by ACF during its triennial review in December 2008.

Scope

Because we performed this limited scope review based on a request from ACF, we did not
perform an overall assessment of SWO’s internal control structure. Rather, we reviewed only
the internal controls that pertained directly to our objectives. Accordingly, we do not express an
opinion on SWO’s overall system of internal accounting controls. Our review period was
October 1, 2007, through September 30, 2009.

After coordinating with ACF, we limited our review to some of the concerns identified by ACF
during its triennial review in December 2008. ACF’s report identified 13 concerns grouped into
11 areas of noncompliance that remained unresolved at the completion of ACF’s review. We
reviewed 11 of the 13 concerns identified by ACF. We did not review 2 concerns related to
Head Start equipment, toys, materials, and furniture because ACF staff agreed to address these
areas separately.

We performed our fieldwork at SWO’s Tribal and Head Start offices in Agency Village, South
Dakota, during the month of September 2009.

Methodology

To accomplish our objectives, we:

   •    reviewed relevant Federal laws, regulations, and guidance;



                                                2
   •   met with ACF staff to obtain information and obtained agreement that, of the 13 concerns
       identified in ACF’s triennial report, ACF staff would address the 2 concerns related to
       Head Start equipment, toys, materials, and furniture;

   •   reviewed the findings contained in ACF’s April 2009 report on the results of the triennial
       review it conducted at SWO in December 2008;

   •   interviewed SWO’s accounting staff and Head Start program officials;

   •   reviewed SWO’s fiscal procedures related to accounting documentation and preparation
       of financial reports;

   •   obtained Federal grant award information to determine SWO’s Federal funding;

   •   reviewed SWO’s audited financial statements for fiscal years (FY) 2005 through 2008;

   •   reviewed unaudited financial records for SWO’s Head Start program for FY 2009;

   •   reviewed minutes of Tribal Council meetings and Head Start Policy Council meetings;
       and

   •   discussed the results of our review with SWO officials on February 11, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

SWO implemented adequate corrective actions with respect to 5 of the 13 concerns identified by
ACF during its triennial review in December 2008. However, 6 of the 13 concerns remained
uncorrected by the end of our fieldwork. (We did not review 2 of the 13 concerns ACF
identified because ACF agreed to review these 2 concerns separately.)

SWO implemented adequate corrective actions with respect to five concerns identified by ACF
during its triennial review in December 2008. Specifically, we determined that SWO:

   •   provided proper authorized documentation to support payroll checks;

   •   provided documentation that its Head Start program met the income-eligibility guidelines
       for families;




                                               3
   •   provided documentation that ensured that all required information was included in the
       Community Assessment;
   •   provided documentation to ensure that it was in compliance with in-kind donations
       regarding the leasing of buildings; and

   •   submitted its audit report in a timely manner.

SWO did not implement adequate corrective actions with respect to six other concerns identified
by ACF during its triennial review in December 2008. Specifically, we determined that SWO:

   •   did not ensure that its accounting policies and procedures manual was updated and
       current;

   •   did not ensure that required background checks were documented for all employees;

   •   did not maintain an efficient and effective recordkeeping system for employee records;

   •   did not develop and implement a systematic, ongoing process of program planning;

   •   did not ensure that all employees completed initial health examinations to include
       screenings for tuberculosis; and

   •   did not ensure that mental health services were provided on a regularly scheduled basis
       with on-site consultation.

UNCORRECTED CONCERNS

Accounting Policies and Procedures Manual Not Updated

According to the April 2009 report of ACF’s triennial review in December 2008, SWO’s
accounting policies and procedures manual was not updated and current.

45 CFR § 74.21(b)(6) states that grantees must maintain “[w]ritten procedures for determining
the reasonableness, allocability and allowability of costs in accordance with the provisions of the
applicable Federal cost principles and the terms and conditions of the award.”

Contrary to these Federal regulations, SWO did not ensure that its written accounting policies
and procedures were updated to reflect the procedures of the new accounting system.
Specifically, SWO did not develop or implement policies and procedures (1) related to the
administration of the grant awards, (2) for apportioning and documenting shared costs, and
(3) for ensuring that administrative costs charged to the Head Start grant did not exceed 15
percent. Additionally, SWO did not have written policies and procedures in place that addressed
the specific reporting requirements of the Recovery Act.

SWO had not updated its written accounting policies and procedures in over 4 years; the last
update was in January 2005. SWO officials stated that the organization is currently working on


                                                 4
updating its accounting policies and procedures manual; the budget portion is in draft form and
work has begun on the cash receipts portion.
Missing Background Check Documentation

According to the April 2009 report of ACF’s triennial review in December 2008, SWO did not
ensure that required background checks were documented for all employees.

45 CFR § 1301.31(b)(1) states: “Before an employee is hired, grantee or delegate agencies must
conduct: …. (iii) A State or national criminal record check, as required by State law or
administrative requirement. If it is not feasible to obtain a criminal record check prior to hiring,
an employee must not be considered permanent until such a check has been completed.”

Contrary to these Federal regulations, personnel records for 13 of 62 employees were missing
required background check documentation.

Insufficient Recordkeeping Systems for Staff Members and Children

According to the April 2009 report of ACF’s triennial review in December 2008, SWO did not
maintain an efficient and effective recordkeeping system for employee records.

45 CFR § 1304.51(g) states: “Record-keeping systems. Grantee and delegate agencies must
establish and maintain efficient and effective record-keeping systems to provide accurate and
timely information regarding children, families, and staff and must ensure appropriate
confidentiality of this information.” (Italics in original.)

Contrary to these Federal regulations, SWO did not maintain efficient and effective
recordkeeping systems for enrolled children, their families, and SWO Head Start staff. For
example, we found that only 49 of 62 Head Start employees had official personnel files in the
Human Resource Department. We also found that only 20 of 30 children’s files that we
judgmentally selected contained documentation of education services being received.

Program Planning Process Not Documented

According to the April 2009 report of ACF’s triennial review in December 2008, SWO did not
ensure that its program planning process included consultation with its Policy Council when
developing goals; nor did it address the findings of either the Community Assessment or the Self
Assessment. ACF’s review of SWO’s program goals found that, while SWO had multi-year and
short-term goals, there were no goals or objectives addressing the findings of the Community
Assessment or the Self Assessment.

45 CFR § 1304.51(a)(1) states:

       Grantee and delegate agencies must develop and implement a systematic, ongoing
       process of program planning that includes consultation with the program’s
       governing body, policy groups, and program staff, and with other community
       organizations that serve Early Head Start and Head Start or other low-income



                                                 5
       families with young children. Program planning must include: ….
       (ii) The formulation of both multi-year (long-range) program goals and short-term
       program and financial objectives that address the findings of the Community
       Assessment, are consistent with the philosophy of Early Head Start and Head
       Start, and reflect the findings of the program’s annual self-assessment….

Our review of the minutes for the SWO Head Start Policy Council meetings provided no
evidence that the Policy Council had discussed the program planning process concerning
Community and Self Assessments for 2009. A SWO official stated that the Policy Council had
discussed Community and Self Assessments for 2009, but these discussions were not
documented in the minutes.

Health Examinations Not Completed

According to the April 2009 report of ACF’s triennial review in December 2008, SWO did not
ensure that all employees completed initial health examinations to include screenings for
tuberculosis.

45 CFR § 1304.52(k)(1) states:

       Grantee and delegate agencies must assure that each staff member has an initial
       health examination (that includes screening for tuberculosis) and a periodic re-
       examination (as recommended by their health care provider or as mandated by
       State, Tribal, or local laws) so as to assure that they do not, because of
       communicable diseases, pose a significant risk to the health or safety of others in
       the Early Head Start or Head Start program that cannot be eliminated or reduced
       by reasonable accommodation. This requirement must be implemented consistent
       with the requirements of the Americans with Disabilities Act and section 504 of
       the Rehabilitation Act.

Contrary to these Federal regulations, employee records for 14 of 62 Head Start employees did
not contain evidence that the required initial health examinations, that included screenings for
tuberculosis, had been completed. Moreover, employee records for 13 other Head Start
employees provided evidence that they had tuberculosis screenings performed, but those records
did not contain evidence that the health examinations had been completed.

Mental Health Services Not Provided

According to the April 2009 report of ACF’s triennial review in December 2008, SWO did not
ensure that mental health services were provided on a regularly scheduled basis with on-site
consultation involving a mental health professional, program staff, and parents.

45 CFR § 1304.24(a)(3) states: “Mental health program services must include a regular schedule
of on-site mental health consultation involving the mental health professional, program staff, and
parents on how to: …. (iii) Assist in providing special help for children with atypical behavior or
development….”



                                                6
Contrary to these Federal regulations, mental health services were not being provided on a
regularly scheduled basis with on-site consultation by a mental health consultant. A consultant
agreement for the 4-month period from August 1, 2009, through November 30, 2009, has been
proposed, but as of the end of our fieldwork this agreement had not been signed by both parties.

RECOMMENDATION

In determining whether SWO should be awarded additional Head Start and Recovery Act
funding, we recommend that ACF consider the information presented in this report.

AUDITEE COMMENTS

In written comments on our draft report, SWO did not directly agree or disagree with our
findings, but stated that its Head Start program “has strengthened partnerships in the community
and began to correct the concerns mentioned in the [draft] report.” SWO’s written comments
also provided more detailed information on corrective actions that SWO said it has either begun
to implement or is planning to implement.

SWO’s comments are included in their entirety as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in SWO’s written comments caused us to change either our findings or our
recommendation to ACF. Therefore we maintain that those findings and the recommendation, as
stated in our draft report, remain valid.




                                                7
APPENDIX
                             Page 1 of 4


APPENDIX: AUDITEE COMMENTS
Page 2 of 4
Page 3 of 4
Page 4 of 4
